   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




March 3, 2011

TO:             Yolanda J. Butler, Ph.D.
                Acting Director
                Office of Community Services
                Administration for Children and Families


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review at San Luis Valley Community Action Agency
                (A-07-10-02766)


The attached final report provides the results of our limited scope review at the San Luis Valley
Community Action Agency. In accordance with the American Recovery and Reinvestment Act
of 2009, the Office of Inspector General (OIG) will provide oversight of covered funds to
prevent fraud, waste and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-07-10-02766
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
  REVIEW AT SAN LUIS VALLEY
  COMMUNITY ACTION AGENCY




                      Daniel R. Levinson
                       Inspector General

                         March 2011
                        A-07-10-02766
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L.
No. 105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty
in communities. Within the U.S. Department of Health & Human Services, the Administration
for Children and Families (ACF), Office of Community Services, administers the CSBG
program. The CSBG program funds a State-administered network of more than 1,000 local
Community Action Agencies (CAA) that create, coordinate, and deliver programs and services
to low-income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

In Colorado, the Department of Local Affairs (DOLA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DOLA is responsible for approving the
State’s grantee Recovery Act grant applications and for monitoring the grantees for compliance
with program regulations. In April 2009, DOLA was awarded an additional $8,684,648 in
Recovery Act funds for the State of Colorado’s CSBG program.

San Luis Valley Community Action Agency (SLVCAA), a private nonprofit organization, is one
of four CAAs in Colorado. The purpose of SLVCAA is to work with employment agencies,
school districts, and higher education facilities to provide education, continuing education, and/or
employment to residents of the six counties in the San Luis Valley in Colorado. During fiscal year
2009, DOLA awarded SLVCAA $166,942 in CSBG grant funds and a Recovery Act grant award
totaling $200,428.

OBJECTIVE

Our objective was to assess SLVCAA’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, we believe SLVCAA is not financially viable and does not have the
capacity to manage and account for Federal funds and to operate its CSBG program in
accordance with Federal regulations. Specifically, SLVCAA did not have an independent
organizational structure and was not capable of managing its CSBG program. Moreover,
SLVCAA’s use of a sub-recipient local government body to manage SLVCAA’s CSBG program
created a conflict of interest.


                                                 i
RECOMMENDATION

In determining whether SLVCAA is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing SLVCAA’s ability to operate the CSBG program in accordance with Federal
regulations.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, SLVCAA agreed with our findings and described
corrective actions that it had implemented or planned to implement. We did not verify the
corrective actions.

SLVCAA’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Colorado Department of Local Affairs ..........................................................1
              San Luis Valley Community Action Agency ................................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          LACK OF ORGANIZATIONAL STRUCTURE AND
            IMPACT ON FINANCIAL VIABILITY .............................................................3

          RECOMMENDATION .............................................................................................4

          GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL
            RESPONSE...........................................................................................................4

OTHER MATTER...............................................................................................................4

APPENDIX

          GRANTEE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L.
No. 105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty
in communities. Within the U.S. Department of Health & Human Services, the Administration
for Children and Families (ACF), Office of Community Services (OCS), administers the CSBG
program. The CSBG program funds a State-administered network of more than 1,000 local
Community Action Agencies (CAA) that create, coordinate, and deliver programs and services
to low-income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. CSBG Recovery Act
funds are distributed to CAAs using the existing statutory formula.

Colorado Department of Local Affairs

In Colorado, the Department of Local Affairs (DOLA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DOLA is responsible for approving the
State’s grantee Recovery Act grant applications and for monitoring the grantees for compliance
with program regulations. In April 2009, DOLA was awarded an additional $8,684,648 in
Recovery Act funds for the State of Colorado’s CSBG program.

San Luis Valley Community Action Agency

San Luis Valley Community Action Agency (SLVCAA), a private nonprofit organization, is one
of four CAAs in Colorado. The purpose of SLVCAA is to work with employment agencies,
school districts, and higher education facilities to provide education, continuing education, and/or
employment to residents of the six counties (Alamosa, Conejos, Costilla, Mineral, Rio Grande,
and Saguache) in the San Luis Valley in Colorado. Prior to SLVCAA’s establishment in 2009,
each of these six counties administered its individual CSBG awards. During fiscal year 2009,
DOLA awarded SLVCAA $166,942 in CSBG grant funds and a Recovery Act grant award
totaling $200,428.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and to take

                                                 1
periodic physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27,
the allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget (OMB) Circular A-122, Cost Principles for
Nonprofit Organizations. The CSBG Act establishes the CSBG program and sets the
requirements and guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess SLVCAA’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG program in accordance with Federal
regulations.

Scope

We conducted a limited review of SLVCAA’s financial viability, financial management system,
and related policies and procedures. Therefore, we did not perform an overall assessment of
SLVCAA’s internal control structure. Rather, we reviewed only the internal controls that
pertained directly to our objectives. Our review period was March 1, 2009, through
August 31, 2010.

We performed our fieldwork at the Conejos County administrative office in Conejos, Colorado,
during August and September 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that SLVCAA is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed SLVCAA’s application and implementation of the grant awards for the
        Recovery Act funding;

   •    reviewed SLVCAA’s policies and procedures related to the CSBG program;

   •    reviewed SLVCAA’s minutes from the Executive Board (Board) meetings, composition
        of the Board, and organizational chart; and

   •    performed, for reasons discussed below, a limited review of the Conejos County
        government’s accounting system and compliance with CSBG Recovery Act reporting
        requirements.




                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Based on our assessment, we believe SLVCAA is not financially viable and does not have the
capacity to manage and account for Federal funds and to operate its CSBG program in
accordance with Federal regulations. Specifically, SLVCAA did not have an independent
organizational structure and was not capable of managing its CSBG program. Moreover,
SLVCAA’s use of a sub-recipient local government body to manage SLVCAA’s CSBG program
created a conflict of interest.

LACK OF ORGANIZATIONAL STRUCTURE AND
IMPACT ON FINANCIAL VIABILITY

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs.

As of the conclusion of our fieldwork, SLVCAA did not have an independent organizational
structure. SLVCAA did not have a staff, financial management systems, policies and
procedures, or its own bank accounts. SLVCAA had delegated the responsibility of carrying out
the performance of the regular and Recovery Act CSBG grants to the Conejos County
government (Conejos County) because, in the absence of staff, systems, and policies and
procedures, SLVCAA did not have the capacity to manage the CSBG program. SLVCAA did
not incur any administrative costs and, as explained in greater detail below, relied on donated
space, personnel, and administrative services provided by Conejos County. With these facts in
mind, and because the CSBG program is SLVCAA’s sole funding source, we do not believe that
SLVCCA has adequate resources to develop and maintain an independent organizational
structure and remain financially viable.

Conejos County is also a sub-recipient of SLVCAA’s CSBG funds. We performed limited work
to determine whether Conejos County properly accounted for SLVCAA’s CSBG funds. We
found that Conejos County’s accounting system adequately identified and supported SLVCAA’s
CSBG costs.

SLVCAA was incorporated as a private nonprofit organization in March 2009. A tripartite
Board of Directors (Board) was established and the Board hired an Executive Director, who
worked in space donated by Conejos County. SLVCAA started receiving regular CSBG funds in
August 2009, which was before SLVCAA was able to develop an organizational structure,
financial management systems, or policies and procedures to manage and account for Federal



                                                 3
funds. The CSBG funds were deposited directly into a Conejos County bank account and
commingled with Conejos County’s funds.

SLVCAA started receiving Recovery Act CSBG funds in December 2009. The Executive
Director, who was responsible for administering the CSBG program, resigned in March 2010,
leaving SLVCAA without any staff. Thereafter, SLVCAA fully delegated the responsibility of
carrying out the performance of the CSBG grants to Conejos County. The Administrator of
Conejos County volunteered to take on the additional duties of administering the Recovery Act
CSBG funds. Another Conejos County employee administered the regular CSBG funds. At the
start of our fieldwork, the Administrator of Conejos County was also a member of the Board.
Consequently, the arrangements SLVCAA made when it delegated administration of the grant to
a sub-recipient and a Board member resulted in a conflict of interest.

RECOMMENDATION

In determining whether SLVCAA is appropriately managing and accounting for the Recovery
Act grant funding, we recommend that ACF consider the information presented in this report in
assessing SLVCAA’s ability to operate the CSBG program in accordance with Federal
regulations.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, SLVCAA agreed with our findings and described
corrective actions that it had implemented or planned to implement. We did not verify the
corrective actions.

SLVCAA’s comments are included in their entirety as the Appendix.

                                     OTHER MATTER

As stated earlier, SLVCAA delegated administration of the CSBG program to Conejos County.
Although Conejos County was not the focus of our review, we performed limited work to assess
Conejos County’s compliance with CSBG Recovery Act job estimates reporting requirements.
We found that Conejos County did not report job estimates based on the Federal guidelines in
OMB’s December 18, 2009, Updated Guidance on the American Recovery Act – Data Quality,
Non-Reporting Recipients, and Reporting of Job Estimates memorandum (M-10-08
memorandum). Conejos County was not aware of the Recovery Act reporting requirements and
subjectively reported the permanent jobs that would be funded by other sources after the
conclusion of Recovery Act funding.




                                               4
APPENDIX
                                                                                                           Pagelof3


                      APPENDIX: GRANTEE COMMENTS 




                                                                                      ffJ./ iifif;;

                                                                                        ~   A ,. . . . . . . . . ,
                                                                                        -"-"-'-"­
                                                                                                                     ~   





                             San Luis Valley Community Action Agency
                                            P.O. Box 300
                                        Alamosa, CO 81101
                              Phone: 719/5 89-6099 - Fax : 719/589 -6299


January 28, 20 II

Patrick J Cogley
Regio nal Inspector General for Alldit Services
Region VIT
601 East 12th Street, Room 0429
Kansas City, MO 64106

Report Number: A-07-10-02766

Dear Mr. Cogley:

Enclosed. please find our response to the draft report of the U.S. Department of llealth and
Human Services. Office of the Inspector General, Rnl/lts of Limited Scope Review GI S(lfl L1I6'
Valley COllllllllllity Action Agency.

If you have an y questions or comments aooutthis response. please do not hesitate to call me at
7 19-852-21 49 or through cmail at r{lbcrthagcdom4 (i gmail.cQm.

Sincerely,



Robert Hagedorn, President
SLVCAA

Cc!filc

Enc!.
                                                                                                        Page2of3




                                                                                     - ..--.--­
                                                                                     ~ A .'''' . 'H' ~




                           San Luis Valley Community Action Agency 

                                           P.O. Box 300 

                                        Alamosa. CO 8!! 0 I 

                            Phone: 7 I 9/589-6099 - Fmc 719/589-6299 



                                           RESPONSE

We appreciate this opportunity to respond to the January, 2011 Re:mlrs oj Limited Scope Reviewal
Sail Litis Valley Communiry Action Agency report.

As President of the San Luis Valley Community Action Agency. I must agree wilh the findings
of the OIG. At the time of the audi t, SLVCAA was not financially viable and did not have the
capacity to manage the CSSG programs. However, we have made great progress sinec Ihattimc
and continue to develop as an organization.

SL VCAA was formed in 2009 upon recommendations from the Colorado Department of Loeal
Affairs (DOLA) who was seeking a regional organization to administer and fulfill the fede ral
objectives of the eSSG programs for the six counties ofthc San Luis Valley (A lamosa, Conejos,
Costilla, Mineral, Rio Grande. and Saguache).

TIle board was able to hire an Executive Director in May, 2009. but only because Conejos
County offered to provide in-kind housing, equipment, and accoun ting systems. As Conejos
County had administered CSBG funds for many years and had the experience to mentor and train
the Executive Director. the board felt this was a very viable option for our first year of existence.

The Executi\'e Director's first task was to apply for the 501 e 3 that the organi~.ation needed to
establish itself, set up the financial management systems, write the policies and procedures. and
set up bank accounts so that by the 20 10- 20 11 grant cycle, SLVCAA would be a Sl3nd-alone
organization.

SL VCAA was awarded a Recovery Act grant of $200.428 in December, 2009. The Directors'
time and attention was drawn away from the organizational needs ofSLVCAA in an effort 10
develop programs and relationships that would allow SLVCAA to get the ARRA funding into
the community.

The Executive Director resigned in March. 2010. While the Board felt that it was important to
continue with the mission and carry outlhe States' activities for the eSBG programs. Their
immediate concern was how to manage the 2010 - 2011 eSSG grant and complete the ARRA
grant, due September, 30, 201 O.

SLVCAA Board agreed to let the Conejos County Administrator complete the disbursement and
reporting of the AR RA funds. The board did nOt realize that this decision would create a conflict
ofintercst between Conejos County and SL VCAA. As soon as this conflict was pointed out, the
Administrator resigned her position on the board.
                                                                                                        Page30f3




Realizing the organization was not financially sustainable at this time, the board decided to
negotiate with a regional organization to establish an MO U to administer the 2010 - 2011 grant
cycle. At that point. they contacted the San Luis Valley Development Resources Group.

A Memorandum of Understanding for the 20 10 - 2011 Grant was signed between the SLVCAA
and SL VDRG in July, 2010. They were chosen because of their experience and strong
background in grants management. longevity of service in the San Luis Valley, and regional
scope. As an organization. SLVDRG administers the Depanment of Commerce. EDA
Development District including an annual EDA Planning Grant. EDA Revolvin g Loan Funds,
CDSG Business Loan Funds through the State of Colorado. Colorado Enterprise Zone
administration. and Colorado DoLA Mineral and Energy Impact Technical Assistance Grants.

The board realizes that they will not be self-sustainable for several years. They have made the
decision to continue to contract with the SLVDRG with the understanding that SLVDRG will assist
them in the creation of \.\Irillen accounting policies, procurement procedures, and develop linancial
management systems. The SL VCAA had established a separate bank account in August. 20 IO.

The SL V(AA Executive Board realizes that it is going to take time for this organization to hecome
completely viable. To that end, we are developing our board. through the use of an independent
(SBG consultant. creating strong relationships with the State, local governments, and non-prolit
service pro\'idcrs, and working closely with SL VDRG 10 establish strong financial and program
controls. We have establ ished systems that wi ll suppon us during this transition period and look
forward to the time when we are an independent and sustainable organiZation. SLV(AA' s mission
is to cormect, support. refer, and improve the lives ofm-risk residents of the San Luis Valley and the
SLV(AA Board fully intends 10 meet this mission.

Submitted.

   A"'~..v
Roben Hagedorn. President
San Luis Valley Community Action Agency

January 28. 20 I I
